   March 26, 2002




Financial
Management
DoD Management of the
North Atlantic Treaty Organization
Security Investment Program
(D-2002-071)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General, DoD,
Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.




     Acronyms
     JFAI                  Joint Formal Acceptance Inspection
     NATO                  North Atlantic Treaty Organization
     NAU                   NATO Accounting Unit
     NSIP                  NATO Security Investment Program
     USACE                 U.S. Army Corps of Engineers
     USEUCOM               U.S. European Command
                      Office of the Inspector General, DoD
Report No. D-2002-071                                                  March 26, 2002
  Project No. D2001LG-0109

      DoD Management of the North Atlantic Treaty Organization
                  Security Investment Program

                               Executive Summary

Background. The North Atlantic Treaty Organization (NATO) Security Investment
Program (NSIP) was established in 1950 as the NATO Infrastructure Program. NSIP
finances the building of facilities needed to support major NATO commands. NSIP-
funded facilities include airfields, communications and information systems, pipelines
and storage facilities for fuel, harbors, military headquarters, radar systems, and
navigational aids. Since the program’s inception, NATO has authorized NSIP projects
totaling $23.5 billion. Generally, NSIP projects are authorized by a unanimous vote by
NATO member countries, which share the costs, through the NATO Infrastructure
Committee. However, when a member country believes a project requires faster
completion than can be realized using NATO procedures, the country may prefinance
the project. To be reimbursed under NSIP, the country submits a prefinancing state-
ment for NATO Infrastructure Committee notation. NATO closes out NSIP projects by
performing a Joint Formal Acceptance Inspection and an audit of project costs.

The U.S. Mission to NATO provides political and military expertise to the U.S.
Ambassador to NATO. Although a Department of State organization, the U.S. Mission
to NATO is funded and operated by DoD, the Department of State, the U.S.
Information Agency, and the Federal Emergency Management Agency. The Office of
the Defense Advisor to the U.S. Mission (Defense Advisor), which reports to the
Under Secretary of Defense for Policy, plans, recommends, coordinates, and monitors
NSIP. The U.S. Army Europe and Seventh Army is the DoD executive agent for
NSIP. Several other DoD Components help manage the U.S. portion of NSIP.

Objectives. Our overall audit objective was to evaluate DoD oversight and
management of NSIP. Specific objectives were to determine how NSIP requirements
were identified, contracted, revalidated, and closed out and to determine whether the
DoD executive agent adequately accounted for the DoD portion of NSIP funds. We
also reviewed the management control program as it applied to the overall objective.

Results. DoD Components needed to improve financial management of recoupments
due on prefinanced projects, to report contingent liabilities incurred when NATO
authorizes new NSIP projects, and to follow closeout procedures for NSIP projects.

       • DoD did not aggressively pursue recoupments from NSIP projects that were
         prefinanced by the United States. As a result, DoD had not collected at least
         $38.6 million and the United States was also losing interest on the
         uncollected amount. Pursuing those recoupments could result in
         $38.6 million of funds being put to better use. In addition, DoD
         overestimated the amount of recoupments in budgeting documents, which
         negatively impacted NSIP funding (finding A).
       • DoD did not report contingent liabilities for U.S. financial commitments to
         NSIP projects on DoD financial statements. As a result, the contingent
         liabilities disclosed on DoD financial statements were understated by about
         $396.8 million (finding B).

       • The Atlantic Division, Naval Facilities Engineering Command, did not
         submit timely requests to the Defense Advisor to have NATO perform Joint
         Formal Acceptance Inspections and audits of U.S.-managed NSIP projects.
         By delaying the closeout of completed NSIP projects, the United States did
         not fully discharge its responsibilities to NATO (finding C).

See Appendix A for a discussion of our review of the management control program.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
European Command develop procedures for managing NSIP, establish a system to
track NSIP projects, and validate recoupments due to the United States. We
recommend that the Under Secretary of Defense (Comptroller) include budget guidance
on reporting expected recoupments in DoD Regulation 7000.14-R, “DoD Financial
Management Regulation.” We recommend that the Defense Advisor establish
procedures for reporting U.S. financial commitments to NSIP projects to the
Commander, U.S. Army Europe and Seventh Army. We recommend that the Assistant
Secretary of the Army (Financial Management and Comptroller) ensure that U.S.
financial commitments to NSIP projects are included on DoD agency-wide financial
statements. We recommend that the Commander, Atlantic Division, Naval Facilities
Engineering Command enforce procedures for submitting requests for Joint Formal
Acceptance Inspections to the Defense Advisor and for submitting annual reports on the
status of NSIP projects to the Supreme Allied Commander Atlantic. We also
recommend that the Commander, Atlantic Division expand instructions to state when
NATO should be requested to audit NSIP projects and require that annual reports
submitted to the Supreme Allied Commander Atlantic also be submitted to the Supreme
Headquarters Allied Powers Europe and the Defense Advisor and that those reports
include the closeout status of all completed projects.

Management Comments. The Chief of Staff, U.S. European Command concurred
with recommendations to develop procedures for managing NSIP, establish a system to
track the status of NSIP projects, and validate recoupments. The Defense Advisor
concurred with the recommendation to establish procedures for reporting U.S. financial
commitments to NSIP projects. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred with the recommendation to ensure that
U.S. financial commitments to NSIP projects are included on the annual DoD agency-
wide financial statements. The Assistant Secretary of the Navy (Installations and
Environment) concurred with recommendations to enforce procedures for submitting
requests for Joint Formal Acceptance Inspections to the Defense Advisor and for
submitting annual reports on the status of NSIP projects to the Supreme Allied
Commander Atlantic. The Assistant Secretary also concurred with the recommendation
to expand instructions concerning NSIP projects.

A discussion of management comments is in the Findings section of the report and the
complete text is in the Management Comments section.

Management Comments Required. We request that the Under Secretary of Defense
(Comptroller) provide comments on this report by May 27, 2002. The Under Secretary
did not receive the draft report in time to have comments included in this report.


                                          ii
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                        1
     Objectives                                                        3

Findings
     A. Accounting for and Recouping Funds From Prefinanced Projects    4
     B. DoD Liabilities for NSIP Projects                              10
     C. Closeout of NSIP Projects                                      14

Appendixes
     A. Audit Process
         Scope                                                         19
         Methodology                                                   20
         Management Control Program Review                             20
         Prior Coverage                                                21
     B. Comptroller Adjustments to NSIP Appropriations                 22
     C. Outstanding Recoupments                                        24
     D. Letter Addressing Liability Reporting                          28
     E. Report Distribution                                            31

Management Comments
     U.S. European Command                                             33
     Department of the Army                                            38
     Department of the Navy                                            40
     U.S. Mission to NATO                                              43
Background
    The North Atlantic Treaty Organization (NATO) Security Investment Program
    (NSIP) was established in 1950 as the NATO Infrastructure Program. NSIP
    finances the construction and restoration needed to support NATO minimum
    military requirements. Facilities built and restored with NSIP funds include
    airfields, communications and information systems, pipelines and storage
    facilities for fuel, harbors, military headquarters, radar systems, and
    navigational aids. NATO member countries share the cost of NSIP projects.
    NATO has authorized NSIP projects totaling $23.5 billion since program
    inception.

    Managing NSIP. At NATO, the NATO Senior Resource Board has overall
    responsibility for military resources that are commonly funded by NATO
    member countries and provides guidance on matters dealing with major resource
    policy. The NATO Infrastructure Committee manages NSIP, including
    screening and managing the technical and financial aspects of all projects,
    authorizing host nations to obligate funds for projects, and deciding on
    procurement methods.

    U.S. Participation in NSIP. The U.S. Mission to NATO (the U.S. Mission)
    provides political and military expertise to the U.S. Permanent Representative
    on the North Atlantic Council, who is the U.S. Ambassador to NATO.
    Although a Department of State organization, the U.S. Mission is a joint
    operation that is funded and operated by DoD, the Department of State, the
    U.S. Information Agency, and the Federal Emergency Management Agency.
    The Office of the Defense Advisor to the U.S. Mission (the Defense Advisor),
    which reports to the Under Secretary of Defense for Policy, plans, recommends,
    coordinates and monitors NSIP at NATO. The Infrastructure, Logistics, and
    Civil Emergency Planning Division of the U.S. Mission justifies, obligates,
    disburses, and accounts for U.S. contributions to NSIP.

    DoD Participation in NSIP. DoD participation in NSIP is based on
    section 2806, title 10, United States Code, “Contributions for North Atlantic
    Treaty Organizations Security Investment Program,” which authorizes the
    Secretary of Defense to contribute the U.S. share to NATO programs that
    acquire and construct military facilities within amounts authorized by law.
    Several DoD Components participate in NSIP and work with the Defense
    Advisor.

           •   The Under Secretary of Defense for Acquisition, Technology, and
               Logistics determines the annual funding required to meet
               U.S. commitments to NSIP, prepares and submits annual budget
               requests, and supports annual funding requirements before Congress.

           •   The Office of the Under Secretary of Defense (Comptroller)
               (the Comptroller) establishes fiscal policy and procedures for
               U.S. participation in NSIP.

           •   The Office of the Under Secretary of Defense for Policy develops
               policy for U.S. participation in NSIP, except fiscal policy.


                                        1
            •   The Logistics Directorate, Joint Staff, provides the U.S. Delegation
                to the NATO Military Committee with advice, information, support,
                and guidance, approved by the Chairman of the Joint Chiefs of Staff,
                on NATO infrastructure.

            •   The Commander in Chief, U.S. Joint Forces Command and the
                Commander in Chief, U.S. European Command (USEUCOM)
                coordinate planning and programming actions that ensure their forces
                receive the maximum benefit from NSIP. Within their areas of
                responsibility, they promote a program to recoup funds and maintain
                complete records on all prefinanced projects until issuance and
                acceptance of NATO audit reports.

            •   The U.S. Army Europe and Seventh Army, NATO Resource Support
                Branch, is the DoD executive agent for NSIP and develops systems
                needed to account for U.S. funds used to support NSIP projects.

            •   The U.S. Army Corps of Engineers (Europe District) (USACE
                [Europe District]) and the Atlantic Division, Naval Facilities
                Engineering Command, are the DoD construction agents for NSIP
                projects when the United States is the administrator country. Also,
                USACE (Europe District) is the collection agent for NSIP projects
                prefinanced by the United States. For the collection activities,
                USACE (Europe District) reports to USEUCOM.

NSIP Capability Packages. In 1993, NATO changed its approval and funding
process for NSIP projects. Previously, NATO approved and funded individual
projects each year. In 1993, NATO started approving and funding projects as
part of capability packages.1 Capability packages involve a top-down process
that is driven by strategic priorities. The top-down process allows NATO to
identify the assets needed by its commanders to achieve specific capabilities and
the cost of those assets.

Authorizing NSIP Projects. Generally, new NSIP projects must be authorized
by a unanimous vote by NATO member countries through the NATO
Infrastructure Committee. However, when a member country believes a project
requires faster completion than can be realized using NATO procedures, the
country may prefinance the project. To be eligible for possible future
reimbursement under NSIP, the country submits a prefinancing statement,
which must be noted by the NATO Infrastructure Committee.

Administering NSIP Projects. For each NSIP project, one NATO member
country or a NATO agency performs the administrative functions for all
member countries. Usually, the administrator country is the country on whose
land the NSIP project is being built, also called the host nation. However, the
host nation may allow another country to administer an NSIP project. That
requires that the two countries execute a memorandum of agreement.
Administering NSIP projects includes designing and preparing specifications,
obtaining bids, awarding contracts, monitoring contractor performance,
1
    The North Atlantic Council approves capability packages except when France does not
    participate in the funding. In those cases, the Defense Planning Committee approves them.



                                             2
     requesting NATO to perform a Joint Formal Acceptance Inspection (JFAI) of an
     NSIP project, and completing an audit with the NATO International Board of
     Auditors. The United States is the administrator country for NSIP projects in
     Iceland and several NSIP projects at Aviano Air Base, Italy. The Atlantic
     Division, Naval Facilities Engineering Command, is the DoD construction agent
     for those NSIP projects. During our audit fieldwork, April 2001 through
     December 2001, USACE (Europe District) was not a construction agent for any
     NSIP projects.

     Reimbursing NSIP Project Costs. Three methods are used to reimburse the
     administrator country for eligible NSIP costs. For authorized projects, all
     NATO member countries provide partial funding up front to the administrator
     country for the planning and design of the project and for the anticipated
     payments to the construction contractor for the first year. Afterward, NATO
     member countries reimburse the administrator country for additional contract
     costs. Those payments, based on a pay sheet calculated and provided by
     NATO, are made each quarter. For prefinanced projects, the administrator
     country initially finances the project and is later reimbursed by the other
     member countries for eligible costs. Procedures to collect funds from the other
     member countries differ depending on whether the administrator country is the
     host nation or user nation. When the host nation is the administrator country, it
     recoups eligible costs by requesting reimbursement directly from the NATO
     Infrastructure Committee. When the user nation is the administrator country, it
     bills the host nation for reimbursement. The host nation then requests payment
     from the NATO Infrastructure Committee. After the host nation is paid, it
     forwards the payment to the administrator country.

     Funding NSIP Costs. Each year NATO establishes a contribution ceiling for
     NSIP. The U.S. share of the contribution ceiling, generally about 25 percent, is
     funded through direct appropriations in the annual DoD Appropriations Acts for
     military construction. For FY 1999, FY 2000, and FY 2001, appropriated
     funds were $154 million, $172 million, and $172 million, respectively. In
     addition, National Defense Authorization Acts allow DoD to use funds recouped
     from prefinanced projects, which originated from military construction money,
     to fund NSIP. In preparing NSIP budgets, DoD reduces its budget request by
     the amount it expects to recoup that year from prefinanced projects.


Objectives
     The overall audit objective was to evaluate DoD oversight and management of
     NSIP. Specific objectives were to determine how NSIP requirements were
     identified, contracted, revalidated, and closed out and to determine whether the
     DoD executive agent adequately accounted for the DoD portion of NSIP funds.
     We also reviewed the management control program as it applied to the audit
     objective. See Appendix A for a discussion of the audit scope and methodology
     and our review of the management control program. See Appendix B for a
     discussion of adjustments that the Comptroller makes to NSIP appropriations
     because of fluctuations in foreign currency exchange rates.




                                         3
           A. Accounting for and Recouping Funds
              From Prefinanced Projects
           USEUCOM did not aggressively pursue recoupments from NSIP
           projects that were prefinanced by the United States as required by
           DoD guidance. In addition, when preparing budgeting documents, DoD
           overestimated expected recoupments from prefinanced projects.
           Recoupments were not aggressively pursued because USEUCOM did not
           have adequate guidance and controls over the recoupment process. Also,
           recoupments were not adequately addressed in budget submissions
           because DoD did not issue adequate guidance for preparing NSIP budget
           submissions. As a result, DoD had not validated and collected at least
           $38.6 million of recoupments and the United States was also losing
           interest on the uncollected amount. In addition, overestimating expected
           recoupments negatively impacted NSIP funding.


Management Control Guidance
    Office of Management and Budget Guidance. Office of Management and
    Budget Circular No. A-123, “Management Accountability and Control,”
    June 21, 1995, provides guidance to Federal managers on improving the
    accountability and effectiveness of Federal programs and operations by
    establishing, assessing, correcting, and reporting on management controls. It
    states that management controls, including the organization, policies, and
    procedures, are tools to help program and financial managers achieve results
    and safeguard the integrity of their programs. The circular requires managers to
    incorporate basic management controls in strategies, plans, guidance, and
    procedures that govern their programs and operations. It states that the controls
    shall be consistent with specific standards, including a standard for recording
    and documentation, which were drawn from the “Standards for Internal Control
    in the Federal Government,” issued by the General Accounting Office. The
    recording and documentation standard states that transactions should be
    promptly recorded and properly classified and accounted for in order to prepare
    timely accounts and reliable financial and other reports.

    General Accounting Office Guidance. “Standards for Internal Control in the
    Federal Government,” November 1999, provides the overall framework for
    establishing and maintaining internal control. It states that internal control and
    all transactions and other significant events need to be clearly documented, and
    the documentation should be readily available for examination. Also, the
    standards state that the documentation should appear in management directives,
    administrative policies, or operating manuals. In addition, the standards state
    that all documentation and records should be properly managed and maintained.




                                         4
Requirements for Recouping Funds From Prefinanced
  Projects
    DoD Guidance. DoD Directive 2010.5, “Participation in the NATO
    Infrastructure Program,” June 24, 1992, requires all commands to aggressively
    pursue recoupment of funds from NSIP projects prefinanced by the United
    States. The directive requires USEUCOM to promote an aggressive program to
    recoup funds. USEUCOM is required to submit the quarterly “NATO
    Infrastructure Prefinancing and Recoupment Status Report.” The U.S. Mission
    is required to coordinate the exchange of information between NATO
    organizations and U.S. agencies. In addition, the directive requires all
    commands to maintain complete records on all prefinanced projects until
    issuance and acceptance of a NATO audit report.

    Army Guidance. U.S. Army Europe and Seventh Army Regulation 415-22,
    “Construction, NATO Infrastructure Program,” February 20, 1976, requires
    USACE (Europe District) to maintain accounting records for accounts
    receivable transactions. Those accounting records should include a general
    ledger, subsidiary ledgers, and supporting documents. The regulation also
    states that a valid accounts receivable occurs when NATO approves specific
    projects prefinanced by the United States and grants authorization to commit
    funds. In addition, the regulation states that records and files kept by USACE
    (Europe District) should reflect billing actions and recoupments collected.
    Specifically, those records and files should represent a complete history of the
    prefinanced project and include all actions taken involving NATO host nations,
    USEUCOM components, and USACE (Europe District).


Recouping Funds and Estimating Recoupment Amounts
    USEUCOM did not aggressively pursue recoupments from NSIP projects that
    were prefinanced by the United States, as required by DoD guidance. In
    addition, when preparing budgeting documents, DoD overestimated expected
    recoupments from prefinanced projects.

    Pursuing Recoupments. USEUCOM did not aggressively pursue recoupments
    from NSIP projects prefinanced by the United States. Specifically, USEUCOM
    did not take the actions needed to validate $115.6 million of recoupments or
    request that USACE (Europe District) take actions needed to collect those
    recoupments from NATO host nations. The $115.6 million of recoupments,
    listed on a USACE (Europe District) schedule of outstanding recoupments,
    included $8 million from 21 projects prefinanced by the Army, $11.6 million
    from 7 projects prefinanced by the Navy, and $96 million from 56 projects
    prefinanced by the Air Force. Some of the available documentation for those
    projects dated back to the 1970s. For example, the most recent information
    received for an Air Force project in Ramstein, Germany, was September 1973—
    28 years ago. Data from the USACE (Europe District) schedule of outstanding
    recoupments is in Appendix C.



                                        5
    Management Actions Taken. During the audit, USEUCOM initiated a review
    of NSIP projects on the USACE (Europe District) schedule of outstanding
    recoupments. According to USEUCOM officials, they identified that
    $76.7 million on the USACE (Europe District) schedule of recoupments were
    not eligible for recoupment and about $300,000 had already been collected on
    one project. The $76.7 million identified by USEUCOM was funding
    associated with projects that USEUCOM officials stated were not eligible for
    recoupment because the projects received direct funding from NATO; were not
    executed by the United States; or were not supported by either the Supreme
    Headquarters Allied Powers Europe or the NATO Infrastructure Committee.
    As of December 2001, USEUCOM was continuing its review of projects on the
    schedule of outstanding recoupments to determine whether the United States
    should pursue recoupments on the $38.6 million associated with them. We did
    not validate the results of the USEUCOM review.

    Estimating Recoupments. When preparing budgeting documents, DoD
    overestimated expected recoupments from prefinanced projects. DoD estimates
    were based on average recoupments from prior years instead of actual expected
    collections. For FY 1999 through FY 2001, the Comptroller reduced the NSIP
    budget request by $11 million each year. The summary for the FY 2002 NSIP
    budget decision detailed how DoD determined the estimated recoupment. For
    that budget, the Comptroller rejected the USEUCOM estimate that it would
    recoup $3 million during FY 2002, stating that USEUCOM did not provide
    support for the estimate. The Comptroller then averaged recoupments collected
    during FY 1998 through FY 2000. Using an average, however, did not take
    into account the variability of recoupments. For example, between FY 1997
    and FY 2001, DoD accounting reports show that USEUCOM recouped between
    $585,000 and $26.4 million each year, a spread of $25.8 million. Furthermore,
    recoupments have decreased recently—in FY 2000 and FY 2001, USEUCOM
    only recouped about $6.1 million and $3.3 million, respectively. Differences
    between budgeted and actual recoupments are important to NSIP because the
    Comptroller reduces the budget request for NSIP by the estimated recoupments,
    as the National Defense Authorization Acts allow DoD to reuse funds recouped
    from prefinanced NSIP projects.


Controls Over Recoupments and Budgeting
    DoD did not have adequate management controls over recoupments or the
    budget process for NSIP. Specifically, recoupments were not aggressively
    pursued because USEUCOM did not have adequate guidance or controls over
    the recoupment process. In addition, recoupments were not adequately
    addressed in budget submissions because DoD did not issue adequate guidance
    for preparing NSIP budget submissions.

    USEUCOM Controls. USEUCOM did not aggressively pursue recoupments
    because it did not have adequate guidance and controls over the recoupment
    process. USEUCOM officials characterized USEUCOM management
    responsibilities for NSIP as “starting to drift around 1994 or 1995.”
    Specifically, USEUCOM rescinded its Directive 60-4, “NATO Common
    Funded Infrastructure Responsibilities,” January 24, 1990; discontinued use of


                                       6
its prefinancing and recoupment system; and stopped preparing and forwarding
the quarterly status report for prefinancing and recoupment to DoD officials.

        Rescinding USEUCOM Directive 60-4. USEUCOM rescinded its
Directive 60-4 in 1996. That directive provided guidance to USEUCOM
components on the NSIP program. It included requirements for reviewing the
status of prefinanced projects, updating and validating information in the NATO
Infrastructure Prefinancing and Recoupment System, and preparing the quarterly
“NATO Infrastructure Prefinancing and Recoupment Status Report.” That
report was submitted to the Assistant Secretary of Defense (Production and
Logistics),2 the Assistant Secretary of Defense (International Security Policy),
and the Assistant Secretaries of the Military Departments responsible for
financial management. According to the current NSIP program manager at
USEUCOM, that directive was not usable because it was prepared before
NATO started using capability packages. Although his predecessor started to
revise the directive, the NSIP program manager stated the following.
               During the re-write, SHAPE and SACLANT3 began a review of
               NATO Directive (85-1)—thus logically delaying the completion of the
               EUCOM directive dealing with NSIP. Now that the Bi-Strategic
               Command (Bi-SC) Directive 85-1, “NATO Security Investment
               Programme Management in Allied Command Atlantic and Allied
               Command Europe,” has been issued [as a draft], now is a good time
               to complete the process.

        Maintaining the Prefinancing and Recoupment System. Although
USEUCOM Directive 60-4 required USEUCOM to maintain the NATO
Infrastructure Prefinancing and Recoupment System, USEUCOM discontinued
that system. USEUCOM officials estimated that the system was discontinued in
1995 and stated the reasons may have been because the military officer assigned
to NSIP was reassigned to the Bosnian efforts and the system, which was
maintained on a classified system, was difficult to access. The NATO
Infrastructure Prefinancing and Recoupment System was not replaced with
another system. Without a system and procedures to track recoupments,
USEUCOM staff working on NSIP were unable to recoup funds from older
prefinanced projects because they were unfamiliar with the details. Instead,
USEUCOM only attempted to recoup funds on NSIP projects that had current
information.

        Reporting Status of Prefinanced Projects. USEUCOM Directive 60-4
required USEUCOM to submit the quarterly NATO Infrastructure Prefinancing
and Recoupment Status Report to the Assistant Secretary of Defense (Production
and Logistics), the Assistant Secretary of Defense (International Security
Policy), and the Assistant Secretaries of the Military Departments responsible
for financial management. However, USEUCOM stopped preparing that report


2
    The Assistant Secretary of Defense (Production and Logistics) was renamed the Deputy Under
    Secretary of Defense (Logistics) in 1994.
3
    SHAPE is Supreme Headquarters Allied Powers Europe. SACLANT is Supreme Allied
    Commander Atlantic.



                                            7
    in 1994. USEUCOM officials were unable to explain why the report was
    discontinued. Also, specific information provided by the report is unknown
    because a copy of the report was not available.

    Budget Controls. Recoupments were not adequately addressed in budget
    submissions because DoD did not issue adequate guidance for preparing NSIP
    budget submissions. DoD Regulation 7000.14-R, “DoD Financial Management
    Regulation,” volume 2B, “Military Construction/Family Housing
    Appropriations,” chapter 6, “Budget Estimates Submission,” Section 060304,
    “North Atlantic Treaty Organization (NATO) Security Investment Program,”
    June 2000, provides instructions for preparing and submitting budget estimates
    for NSIP. For NSIP, that regulation required the submission of an NSIP-1
    exhibit, which lists requirements at the project level for both construction and
    procurement requirements. The regulation, however, did not provide
    instructions for estimating recoupments. Instead, the Comptroller requested
    information from USEUCOM verbally. Without a requirement in the regulation
    for providing details of expected recoupments, USEUCOM had no ongoing
    requirement to develop procedures that would provide reliable forecasts of
    expected recoupments.


Impact on the United States and NSIP
    Because USEUCOM and its components did not aggressively pursue
    recoupments, DoD had not collected at least $38.6 million and the United States
    was also losing interest on the uncollected amount. In addition, overestimating
    expected recoupments negatively impacted NSIP funding.

    Impact on the United States. DoD could potentially recoup $38.6 million by
    implementing corrective actions to validate and collect recoupments, which
    would return the funds to the NSIP appropriation, appropriation account symbol
    97X084. Recoupments listed by USACE (Europe District) totaling
    $38.6 million would have accrued interest4 totaling $11.2 million from
    January 1996 through August 2001. For each day those recoupments remain
    outstanding, the United States loses $6,350 of additional interest.

    Impact on NSIP Funding. Overestimating expected recoupments negatively
    impacted NSIP funding because the Comptroller reduced the budget request for
    NSIP by the estimated recoupments, as the National Defense Authorization Acts
    allow DoD to reuse funds recouped from prefinanced NSIP projects. In
    comments to the FY 2002 program budget decision for NSIP, the Director of
    Plans and Policy at USEUCOM stated that the U.S. representative to the
    Infrastructure Committee would be forced to place a hold on funding projects
    that benefit the United States because the NSIP account has been underfunded.
    In addition, the Director stated that because actual recoupments were less than
    estimated recoupments, there was a negative impact on overall NSIP funding.


    4
        Interest was calculated using the simple interest method and applying interest rates established
        by the Department of Treasury for overdue accounts receivable.



                                                   8
    Furthermore, the Director stated that the Comptroller’s proposed estimates
    would underfund NSIP and place a moratorium on authorizing and starting new
    projects.


Recommendations and Management Comments
    A.1. We recommend that the Commander in Chief, U.S. European
    Command:

          a. Develop written procedures for managing the North Atlantic
    Treaty Organization Security Investment Program, including preparing
    budget submissions.

          b. Establish a system to track the status of North Atlantic Treaty
    Organization Security Investment Program projects.

           c. Validate the recoupments due to the United States.

    Management Comments. The Chief of Staff, U.S. European Command
    concurred, stating that the command will develop a directive to outline roles and
    responsibilities related to NSIP by May 31, 2002, develop a database to track
    NSIP projects by March 5, 2002, and compile a list of all prefinanced projects
    by September 30, 2002.

    A.2. We recommend that the Under Secretary of Defense (Comptroller)
    revise DoD Regulation 7000.14-R, volume 2B, chapter 6, “Budget Estimate
    Submissions,” June 2000, to include guidance on budget reporting
    requirements for estimated recoupments of prefinanced North Atlantic
    Treaty Organization Security Investment Program projects.

    Management Comments Required. We request that the Under Secretary of
    Defense (Comptroller) provide comments on this report.




                                        9
           B. DoD Liabilities for NSIP Projects
           DoD did not report contingent liabilities for U.S. financial commitments
           to NSIP projects on DoD financial statements. That occurred because
           Defense Advisor officials were not aware of the Chief Financial Officers
           Act and DoD policy that require such reporting. In addition, those
           officials did not establish procedures to report NSIP financial liabilities
           to DoD. As a result, the contingent liabilities disclosed on DoD
           financial statements were understated by about $396.8 million.


U.S. Government and NATO Guidance
    Chief Financial Officers Act. The Chief Financial Officers Act of 1990 (the
    Act), Public Law 101-576, requires Federal agencies to improve systems of
    accounting, financial management, and internal controls to ensure the issuance
    of reliable financial information. In addition, the Act requires the production of
    complete, reliable, timely, and consistent financial information for use by the
    executive branch of the Government and Congress in the financing,
    management, and evaluation of Federal programs. The Act also requires that
    each financial statement reflect:
               . . . (1) the overall financial position of the revolving funds, trust
               funds, offices, bureaus, and activities covered by the statement,
               including assets and liabilities thereof; (2) results of operations of
               those revolving funds, trust funds, offices, bureaus, and activities; (3)
               cash flows or changes in financial position of those revolving funds,
               trust funds, offices, bureaus, and activities; and (4) a reconciliation to
               budget reports of the executive agency for those revolving funds, trust
               funds, offices, bureaus, and activities.

    DoD Guidance. DoD Regulation 7000.14-R, volume 4, chapter 8, “Financial
    Control of Liabilities,” January 1995, sets forth the policy to be followed in
    accounting for liabilities. It states that a liability is an amount owed by DoD for
    items received, services received, expenses incurred, assets acquired,
    construction performed, and cash advances received but as yet unearned. It
    states that a contingent liability occurs when a condition, situation, or set of
    circumstances exists that may confirm the loss or impairment of an asset or the
    incurrence of a liability. Chapter 8 requires that estimated losses be recorded in
    DoD financial systems and reported on financial statements if an asset has
    probably been impaired or a liability has probably been incurred as of the date
    of the financial statements.

    Volume 6B, chapter 10, “Notes to the Financial Statements,” October 1999,
    provides instructions for the preparation and presentation of notes to the
    principal statements, including format and content. It states that contingent
    liabilities are disclosed in the notes to the financial statements when conditions
    for liability recognition do not exist but there is at least a reasonable possibility
    that a loss or additional loss will occur.



                                             10
    Volume 6B, chapter 2, “General Instructions for the Financial Statements,”
    October 2000, identifies officials responsible for the content and submission of
    audited DoD financial statements. For DoD funds provided to the Army, the
    regulation requires that the Assistant Secretary of the Army (Financial
    Management and Comptroller) provide financial data to the Defense Finance
    and Accounting Service, which prepares the DoD agency-wide financial
    statements.

    NATO Guidance. The working draft of the Bilateral Strategic Command
    Directive 85-1, “NATO Security Investment Programme Management in Allied
    Command Atlantic and Allied Command Europe,” December 10, 2000, covers
    all aspects of NSIP. The directive states that the NATO Infrastructure
    Committee authorizes all NSIP projects and authorizes the administrator country
    to commit NATO funds.

    The NATO Infrastructure Manual, part I, “Policy and Procedures,” NATO
    document AC/4-M/206 (revised), August 1991, states that for projects where
    the full amount of funds are not needed within the first year, the NATO
    Infrastructure Committee will note the total cost, but will include only a
    sufficient funding level to cover the first year’s requirement. The purpose is to
    avoid tying up funds for longer than necessary, thus permitting more projects to
    be started and completed sooner. The NATO Infrastructure Committee
    guarantees to host nations that NATO will provide funds for the total project or
    pay reasonable termination costs should a decision be taken to terminate the
    design or construction.


Recording and Reporting Financial Commitments
    DoD did not report contingent liabilities for U.S. financial commitments to
    NSIP projects on DoD financial statements. Those contingent liabilities were
    incurred when NATO member countries voted to authorize new NSIP projects.
    Instead of recording and tracking outstanding U.S. financial commitments to
    NSIP projects, Defense Advisor officials relied on the NATO International Staff
    to document all of the financial liabilities for NSIP projects on NATO financial
    statements. The U.S. share of the liability was not reported or disclosed by
    Defense Advisor officials to the DoD executive agent, the Commander,
    U.S. Army Europe and Seventh Army, who prepares and submits data to
    support financial statements to the Assistant Secretary of the Army (Financial
    Management and Comptroller). On the FY 2000 “Department of Defense
    Agency-wide Audited Financial Statements,” February 15, 2001, the Defense
    Finance and Accounting Service reported $810.4 billion in non-Federal
    liabilities, but did not report or disclose contingent liabilities for U.S. financial
    commitments to NSIP. According to volume 6B of DoD Regulation 7000.14-R,
    the Defense Advisor is responsible for recording and reporting NSIP liabilities.




                                         11
Procedures for Reporting Financial Commitments
     DoD did not report contingent liabilities because Defense Advisor officials were
     not aware of the Chief Financial Officers Act and DoD policy that require such
     reporting. Funding NSIP projects is not like funding U.S. military construction
     projects. For U.S. military construction projects, DoD obligates funds for the
     amount of each project’s contracted cost. For NSIP projects, however, DoD
     obligates only the U.S. share of funding authorized by the NATO Infrastructure
     Committee and not the U.S. share of total project costs. Because the NATO
     Infrastructure Committee guarantees funding to cover the authorized scope (total
     cost) of NSIP projects, the difference between the authorized scope and
     authorized funding for the U.S. share of NSIP projects is a contingent liability
     for DoD.

     Because Defense Advisor officials were not aware of requirements for reporting
     contingent liabilities for NSIP projects, they did not establish procedures for
     reporting financial commitments to NSIP projects as liabilities. Such
     procedures should include the Defense Advisor either informing the DoD
     executive agent of each new financial commitment or of the total
     U.S. commitment after receiving total NSIP commitments from NATO.
     Recording each new financial commitment would also require that the DoD
     executive agent liquidate the liabilities in the accounting records as host nations
     recover their costs. Recording the liability for the U.S. share of NSIP financial
     commitments would require Defense Advisor officials to apply the U.S. share to
     total NSIP commitments as of September 30 of each year.


Liability Reporting at the Federal Aviation Administration
     In June 2001, the Federal Accounting Standards Advisory Board responded to a
     request from the Federal Aviation Administration for guidance on reporting
     liabilities associated with financial commitments made to airport authorities
     before the Federal Aviation Administration executed grant agreements. That
     situation was similar to DoD commitments to NSIP projects. Both commitments
     involved a contingent liability and the presence of a track record for subsequent
     funding. Unlike DoD, however, the Federal Aviation Administration was not
     able to reasonably estimate the amount of its financial commitment. Therefore,
     the Federal Accounting Standards Advisory Board concluded that the Federal
     Aviation Administration should disclose only the liability in the notes to its
     financial statements to alert the readers to the contingent liability and give some
     indication of magnitude. Because DoD can reasonably estimate its NSIP
     commitment, DoD should report that commitment on its financial statements.
     The letter to the Federal Aviation Administration is in Appendix D.




                                         12
Understatement of Liabilities on DoD Financial Statements
     Contingent liabilities reported on DoD financial statements were understated by
     about $396.8 million. As of December 31, 2000, the North Atlantic Council
     had approved $23.5 billion of NSIP projects and the NATO Infrastructure
     Committee had authorized funds for implementation of NSIP projects totaling
     $21.9 billion. The difference, $1.6 billion, is the NATO commitment to NSIP
     projects. Because the United States finances an average of 24.7 percent of NSIP
     projects, the U.S. commitment totaled about $396.8 million. Properly reporting
     financial information alerts readers of DoD financial statements to the
     magnitude of NSIP contingent liabilities.


Recommendations and Management Comments
     B.1. We recommend that the Defense Advisor to the U.S. Mission to the
     North Atlantic Treaty Organization establish procedures for reporting
     U.S. financial commitments to North Atlantic Treaty Organization Security
     Investment Program projects to the Commander, U.S. Army Europe and
     Seventh Army so that those commitments will be reported on annual DoD
     agency-wide financial statements.

     Management Comments. The Defense Advisor concurred, stating that
     procedures have been established to report financial liabilities for each NSIP
     project authorized by the NATO Infrastructure Committee to the Deputy Chief
     of Staff (Resource Management), U.S. Army Europe and Seventh Army. The
     Defense Advisor stated that the new procedures went into effect as of the
     January 8, 2002, meeting of the NATO Infrastructure Committee.

     B.2. We recommend that the Assistant Secretary of the Army (Financial
     Management and Comptroller) ensure that U.S. financial commitments to
     North Atlantic Treaty Organization Security Investment Program projects
     are included on the annual DoD agency-wide financial statements.

     Management Comments. The Assistant Secretary of the Army (Financial
     Management and Comptroller) concurred, stating that he will specifically
     request the financial commitments to NSIP projects from the U.S. Army Europe
     and Seventh Army beginning with the FY 2002 data call for contingent
     liabilities.




                                        13
                 C. Closeout of NSIP Projects
                 The Atlantic Division, Naval Facilities Engineering Command, did not
                 submit timely requests to the Defense Advisor to have NATO perform
                 JFAIs and audits of U.S.-managed NSIP projects. That condition
                 occurred because the NATO Program Office, Atlantic Division, did not
                 establish the closeout of NSIP projects as a priority because it did not
                 have the necessary staff resources. Also, the Atlantic Division did not
                 require the NATO Program Office to prepare and submit an annual
                 report to the Defense Advisor and the Supreme Headquarters Allied
                 Powers Europe on the status of NSIP projects. By delaying the closeout
                 of completed NSIP projects, the United States did not fully discharge its
                 responsibilities to NATO.


Project Closeout Policies and Procedures
     Atlantic Division Project Closeout Policies. Atlantic Division, Naval Facilities
     Engineering Command, Instruction 4000.2A, “Atlantic Division, Naval
     Facilities Engineering Command Role and Responsibilities in Participating in
     the North Atlantic Treaty Organization Infrastructure Program,” August 12,
     1986, states that within 6 months of the contract completion date5 for each NSIP
     project, the Atlantic Division should request that NATO staff perform a JFAI.
     The instruction also requires the Atlantic Division to submit an annual report to
     the Supreme Allied Commander Atlantic, listing all projects expected to be
     completed and ready for a JFAI in the next calendar year.6 Although the
     instruction does not specify that the NATO Program Office is to request an
     audit, it does list all of the project documents that the office must provide to the
     NATO International Board of Auditors and states that an audit is normally
     performed within 2 years of project completion.

     NATO Project Closeout Policies. Chapter 10, “Acceptance of Projects,” in
     the “NATO Infrastructure Manual,” August 1991, states that administrator
     countries are required to request JFAIs within 6 months of the contract
     completion date of a project. The instruction states that the formal acceptance
     of a project constitutes a formal agreement that the NSIP project is physically
     complete and militarily and technically acceptable and that the administrator
     country responsibilities have been fully discharged. In addition, chapter 10
     states that uncorrected deficiencies identified by the JFAI may prevent formal
     acceptance of a project or forfeiture of NATO funding needed to correct any
     deficiencies.

     Closeout Procedures. Closing out NSIP projects requires NATO to perform a
     JFAI and an audit of project costs. JFAIs, requested by the administrator
     country, are a combined inspection of NSIP projects that establish an inventory
     5
         The instruction refers to contract completion dates as beneficial occupancy dates. The assistant
         NATO coordinator, NATO Program Office, stated that NSIP-funded facilities are usually
         occupied on the contract completion date.
     6
         Specifically, that annual report should also be submitted directly to the Defense Advisor.



                                                   14
    of facilities and their as-built condition. Generally, during JFAIs, NATO staff,
    with assistance from host nation or administrator country staff, compares the
    completed project against what NATO agreed to fund. Afterward, the
    administrator country requests the NATO International Board of Auditors to
    audit project costs. After NATO and the administrator country resolve any
    audit issues, NATO issues a certificate of final financial acceptance that closes
    the project. Until then, NATO and the administrator country have not finalized
    their financial commitments to each other. Although DoD does not control
    when NATO performs JFAIs and audits, it does have control over when it
    requests NATO to perform those reviews.

    Within DoD, the NATO Program Office, a component of the Capital
    Improvements Division, Atlantic Division, Naval Facilities Engineering
    Command, maintains a NATO Infrastructure Status Report for its own use.
    That report includes project status information, including the contract award and
    contract completion dates.


Requesting JFAIs and Audits
    The Atlantic Division did not submit timely requests to the Defense Advisor to
    have NATO perform JFAIs and audits of U.S.-managed NSIP projects. The
    NATO Infrastructure Status Report, dated June 20, 2001, lists 66 NSIP projects
    in the continental United States, Iceland, and Italy that were still open although
    the contract had been completed. That report shows that 42 (65.2 percent) of
    the 66 completed projects had been completed for at least 2 years but had not
    been closed out. Those 42 projects included 12 projects that were completed
    between 5 and 13 years ago.

    Requesting JFAIs. The NATO Infrastructure Status Report did not document
    JFAI request dates, and officials in the NATO Program Office were not able to
    provide documentation showing that they had requested NATO to perform a
    JFAI for the 42 projects that had been completed for at least 2 years but had not
    been closed out. Although unable to provide documentation, officials in the
    NATO Program Office stated that a JFAI had been performed recently for 2 of
    the 12 projects.

    Requesting Audits. The NATO Infrastructure Status Report noted that 18 of
    the 42 projects were ready for a NATO audit. However, because the report
    does not document audit request dates, we could not determine how many audit
    requests had been submitted. None of the 18 projects was within the 2-year
    guideline for audit completion: the average elapsed time since contract
    completion was 8 years and the longest elapsed time since contract completion
    was 13 years.


Complying With NSIP Project Closeout Policies
    The NATO Program Office was not complying with Atlantic Division
    requirements for requesting JFAIs within 6 months of contract completion


                                        15
     because the NATO Program Office had not established the closeout of NSIP
     projects as a priority, and the Atlantic Division did not require its NATO
     Program Office to report on the status of NSIP projects.

     Priority of Project Closeouts. Officials in the NATO Program Office stated
     that closeout of NSIP projects was a low priority because it did not have the
     necessary staff resources. The officials stated that their emphasis was on
     managing new and ongoing projects. In particular, emphasis on new projects
     was important because the NATO Program Office designs new projects and
     construction cannot begin until the design has been completed. They also stated
     that the NATO Program Office had not been adequately staffed for several
     years. The program manager and assistant NATO coordinator have been
     primarily responsible for project closeouts. A staff shortage existed from 1997
     through 2000 because the assistant NATO coordinator left for an assignment
     with the NATO international staff in Brussels, Belgium, and was not replaced in
     the NATO Program Office. Then, shortly after the assistant NATO coordinator
     returned to duty in the NATO Program Office, the program manager left. The
     program manager’s position was not filled until July 2001. Without adequate
     staff for about 4 years, the NATO Program Office concentrated on higher
     priority work and allowed lower priority work, such as closing out NSIP
     projects, to slip.

     Reporting on NSIP Project Closeouts. The Atlantic Division did not require
     the NATO Program Office to prepare and submit an annual report to the
     Defense Advisor in accordance with Atlantic Division, Naval Facilities
     Engineering Command, Instruction 4000.2A. The instruction requires the
     NATO Program Office to provide information about projects expected to be
     completed and ready for a JFAI in the next calendar year. However, the
     Atlantic Division instruction did not require the NATO Program Office to
     provide the status of all of the completed projects or to include contract
     completion dates and request dates for JFAIs and audits.

     Because the NATO Program Office was not required to report on NSIP project
     closeouts, it did not have adequate metrics for tracking project closeouts.
     Specifically, although the internal NATO Infrastructure Status Report included
     contract award and contract completion dates and the Atlantic Division’s master
     listing of NATO audits included audit completion dates, those documents did not
     contain sufficient data to readily determine whether the NATO Program Office
     requested JFAIs and audits on time. The Defense Advisor needs planned
     project completion dates, JFAI request dates, JFAI completion dates, and audit
     request dates to ensure that JFAIs and audits are requested on time. That
     information would provide the Defense Advisor with the status of NSIP projects
     and would identify workload for the next calendar year, project delays, and
     other areas of concern.


Discharging Responsibilities
     The United States has not fully discharged its responsibilities to NATO for NSIP
     projects until NATO completes a JFAI, performs an audit of project costs, and
     issues a certificate of final financial acceptance. Until then, the United States is


                                         16
    accountable for all NSIP funds authorized and expended. According to officials
    in the NATO Program Office, delays in the steps needed to close out NSIP
    projects increase the risk that DoD Components lose supporting documents.
    Also, personnel who are knowledgeable about the projects may no longer be
    available. The officials in the NATO Program Office also stated that delays
    increase the possibility that the configuration of NSIP-funded facilities may
    change. For example, NSIP-funded equipment may be replaced or moved to a
    different location. When project costs are not fully supported, the
    U.S. Government may be held responsible for the unsupported costs.
    Therefore, it is important for the United States to promptly close out NSIP
    projects by ensuring that JFAIs and NATO audits are requested on time.


Recommendations and Management Comments
    C. We recommend that the Commander, Atlantic Division, Naval Facilities
    Engineering Command:

            1. Enforce the procedures of Atlantic Division, Naval Facilities
    Engineering Command, Instruction 4000.2A, “Atlantic Division, Naval
    Facilities Engineering Command Role and Responsibilities in Participating
    in the North Atlantic Treaty Organization Infrastructure Program,”
    August 12, 1986, on submitting:

                  a. Requests for Joint Formal Acceptance Inspections.

                    b. Annual reports to the Supreme Allied Commander
    Atlantic, listing all projects that are expected to be completed and ready for
    a Joint Formal Acceptance Inspection in the following calendar year.

    Management Comments. The Assistant Secretary of the Navy (Installations
    and Environment) concurred. For Recommendation C.1.a., the Assistant
    Secretary stated that since July 2000 the NATO Program Office has been
    submitting requests for JFAIs as soon as projects were completed and as-built
    drawings became available. For Recommendation C.1.b., the Assistant
    Secretary stated that the NATO Program Office will submit annual reports to
    the Supreme Allied Commander Atlantic.

        2. Expand Atlantic Division, Naval Facilities Engineering
    Command, Instruction 4000.2A to state:

                  a. How soon after the completion of a Joint Formal
    Acceptance Inspection the North Atlantic Treaty Organization Program
    Office should request an audit by the North Atlantic Treaty Organization.

                  b. That the annual report to the Supreme Allied Commander
    Atlantic should be submitted to the Supreme Headquarters Allied Powers
    Europe and the Defense Advisor to the U.S. Mission to the North Atlantic
    Treaty Organization and that the report include the closeout status of all




                                       17
completed projects. Closeout status data should include the contract
completion date and request dates for Joint Formal Acceptance Inspections
and audits.

Management Comments. The Assistant Secretary of the Navy (Installations
and Environment) concurred. For Recommendation C.2.a., the Assistant
Secretary stated that Atlantic Division, Naval Facilities Engineering Command,
Instruction 4000.2A will be amended to require that requests for audits of
projects be prepared after receiving final acceptance documents from NATO.
For projects where the Atlantic Division, Naval Facilities Engineering
Command, is not the design and construction agency, the instruction will also
require that the Atlantic Division provide advice and assistance to the
responsible agency. For Recommendation C.2.b., the Assistant Secretary stated
that Atlantic Division, Naval Facilities Engineering Command, Instruction
4000.2A will be amended to include the Supreme Headquarters Allied Powers
Europe in the distribution list for the “Semi Annual Infrastructure Progress
Report” and that audit request dates will be added to the report, if feasible. The
Assistant Secretary noted that the U.S. Mission to NATO already receives that
report. The estimated completion date for amending the instruction is June 28,
2002.




                                    18
Appendix A. Audit Process

Scope
    We evaluated DoD oversight and management of NSIP. To understand
    DoD participation, we reviewed 10 U.S.C. 2806, “Contributions for North
    Atlantic Treaty Organizations Security Investment Program.” We reviewed
    DoD directives and regulations, memorandums of understanding and agreement,
    Military Construction Appropriation Acts for FY 1999 through FY 2001,
    program budget decisions for NSIP, and the FY 2002 Military Construction
    Program Amended Budget for NSIP dated July 2001. We also reviewed Office
    of Management and Budget circulars; National Institute of Science and
    Technology standards; NATO, USEUCOM, and U.S. Army Europe and
    Seventh Army guidance; and the Chief Financial Officers Act of 1990. In
    addition, we reviewed a USACE (Europe District) schedule of outstanding
    recoupments. To identify closeout policies for NSIP projects, we reviewed
    Atlantic Division, Naval Facilities Engineering Command, Instruction 4000.2A,
    August 12, 1986. Also, we reviewed the NATO Program Office, Atlantic
    Division, Infrastructure Status Report, dated June 20, 2001, and the Atlantic
    Division’s master listing of NATO audits dated April 9, 2001, for compliance
    with project closeout policies. In addition, we reviewed NATO Infrastructure
    Committee memorandums and decision sheets and NATO financial statements
    for FY 1999 and FY 2000. The documents we reviewed were dated from
    September 1955 through October 2001.

    We interviewed officials from the offices of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics; Under Secretary of Defense
    (Comptroller); Under Secretary of Defense for Policy; and Joint Staff. We
    visited the U.S. Mission at NATO headquarters in Brussels, Belgium; the
    U.S. Army Europe and Seventh Army in Mons, Belgium; the U.S. European
    Command in Vahingen, Germany; and the U.S. Joint Forces Command in
    Norfolk, Virginia, to determine whether DoD Components implemented the
    DoD portion of NSIP according to DoD policies and procedures. We also
    visited the Atlantic Division, Naval Facilities Engineering Command, in
    Norfolk, Virginia, and its Engineering Field Activity at Aviano Air Base, Italy,
    to review NSIP contract records for compliance with project closeout policies
    and procedures. To determine the methods used to recoup U.S. funds from
    prefinanced projects, we visited USACE (Europe District) in Wiesbaden,
    Germany. In addition, we visited the Defense Finance and Accounting Service,
    Europe, in Kaiserslautern, Germany, to review the financial support it provides
    for NSIP.

    Limitations to Audit Scope. The review of records related to recoupments was
    limited because documents were damaged or destroyed in a fire at USACE
    (Europe District) in March 1998. Also, USACE (Europe Division) lost other
    recoupment data when the personal computer that stored the information
    malfunctioned.




                                       19
    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the DoD Financial
    Management high-risk area.


Methodology
    We evaluated the effectiveness of DoD oversight and management of NSIP.
    Specifically, we identified requirements established by the Office of
    Management and Budget, the General Accounting Office, DoD, and NATO
    international staff for NSIP and performed the following actions.

           •   We examined the methodology used by USACE (Europe District) to
               account for the recoupment of funds from NSIP projects prefinanced
               by the United States.

           •   We evaluated Defense Advisor procedures for making NSIP
               commitments and reporting contingent liabilities.

           •   We reviewed NATO policies for closing out NSIP projects and
               examined the methods used by the Atlantic Division, Naval Facilities
               Engineering Command, to close out NSIP projects and monitor
               project data.

           •   We identified procedures used by the Comptroller to establish the
               foreign currency exchange rate for NATO programs and adjust the
               budget authority provided to the U.S. Mission for NSIP.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to conduct the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from April through December 2001 in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USEUCOM and USACE (Europe District) management controls


                                       20
    over prefinancing and recoupments of NSIP projects and over the reporting of
    contingent liabilities to the Assistant Secretary of the Army (Financial
    Management and Comptroller). Specifically, we reviewed USEUCOM
    procedures for recouping funds from NSIP projects prefinanced by the United
    States and for reporting the status of prefinanced projects. At USACE (Europe
    District), we reviewed management controls over recording recoupments in
    accounting records with supporting documentation. At the U.S. Mission to
    NATO, we reviewed Defense Advisor management controls for recording
    U.S. Government commitments to NATO. At the Atlantic Division, Naval
    Facilities Engineering Command, we reviewed the management control program
    for project closeouts.

    Adequacy of Management Controls. We identified material management
    control weaknesses at USEUCOM as defined by DoD Instruction 5010.40.
    USEUCOM management controls did not ensure that recoupments were
    aggressively pursued. Recommendation A.1., if implemented, will correct the
    identified weaknesses and could result in potential monetary benefits of
    $38.6 million (see finding A). A copy of the report will be provided to the
    senior official responsible for management controls at USEUCOM.


Prior Coverage
    No prior audit coverage has been conducted on NSIP during the last 5 years.




                                      21
Appendix B. Comptroller Adjustments to
            NSIP Appropriations
   Defense Advisor officials expressed concern that the Comptroller was not
   making all appropriated NSIP funds available for use. We reviewed FY 2001
   program budget decisions for NSIP made by the Comptroller and the FY 2001
   appropriation for NSIP. The Comptroller did not make all FY 2001 NSIP funds
   available to the Defense Advisor during that fiscal year because of fluctuations
   in foreign currency exchange rates. FY 2001 funds that were not made
   available during that fiscal year were to be made available during FY 2002.
   The Comptroller adjustments for the foreign currency fluctuations were
   appropriate.

   NATO Common Currency. In January 1996, the NATO Senior Resource
   Board established a common currency unit, the NATO Accounting Unit (NAU),
   for NATO member countries to use for conducting NATO business transactions.
   The NAU is based on a constant rate of 139.66 Belgian francs per NAU.
   Although DoD uses the NAU exchange rate, which is updated each quarter, to
   record disbursements for NSIP projects, DoD uses an exchange rate established
   before each fiscal year to obligate funds for NSIP projects. For each
   disbursement, differences between the obligation and disbursement exchange
   rates affect the foreign currency fluctuation account. When the obligation
   exchange rate is higher than the disbursement exchange rate, DoD transfers the
   excess funds into the foreign currency fluctuation account. When the obligation
   exchange rate is lower than the disbursement exchange rate, funds from the
   foreign currency fluctuation account help pay the disbursement.

   Requirement for DoD to Reduce Appropriation. Congress reduced amounts
   in the DoD Appropriations Act, FY 2001, Public Law 106-259, by
   $856.9 million for Operation and Maintenance, Military Personnel, and Defense
   health programs because of favorable foreign currency fluctuations. That
   appropriation required DoD to decrease the budgeted amounts for overseas
   programs, including NSIP, because the public law did not list specific programs
   to be affected.

          Reducing Appropriations by Adjusting Exchange Rates. To reduce
   the appropriation for Operation and Maintenance, Military Personnel, and
   Defense health programs, the Comptroller adjusted the budgeted foreign
   currency exchange rates for FY 2001. For new NATO obligations, the foreign
   currency exchange rate budgeted for NAUs was reduced from $3.64 to $2.81
   per NAU.

          Applying the Adjusted Exchange Rates to NSIP. For its FY 2001
   budget, DoD requested $190 million to fund NSIP commitments. At the
   budgeted exchange rate of $3.64 per NAU, DoD could purchase 52.2 million
   NAUs. Congress, however, appropriated only $172 million for NSIP. That
   appropriation allowed DoD to purchase only 47.3 million NAUs at $3.64 per
   NAU. In Program Budget Decision No. 313, “NATO Security Investment
   Program,” November 20, 2000, the Comptroller reduced NSIP funds available
   during FY 2001 from $172 million to $132.6 million by applying an exchange

                                      22
rate of $2.81 per NAU. However, that still allowed DoD to purchase
47.2 million NAUs, and the Defense Advisor was able to operate NSIP at the
funding level appropriated by Congress. In addition, Program Budget Decision
No. 313 called for DoD to reduce its FY 2002 budget request for NSIP by
$39.3 million, the amount that the Comptroller had reduced NSIP funds for
FY 2001.

         In Program Budget Decision No. 741, “Major Budget Issues – Army and
Defense-Wide,” January 12, 2001, the Deputy Secretary of Defense increased
NSIP FY 2001 funds by $13.9 million for the purchase of an additional
4.9 million NAUs. That decision allowed DoD to purchase a total of
52.2 million NAUs during FY 2001 and to support NSIP at the level of the
FY 2001 NSIP budget request. After Program Budget Decision No. 741, DoD
still had $25.4 million of FY 2001 NSIP funds that could be used to reduce the
NSIP FY 2002 budget request.




                                  23
Appendix C. Outstanding Recoupments
   As of August 2001, USACE (Europe District) listed outstanding recoupments of
   $115.6 million. The outstanding recoupments included $8 million from
   21 projects prefinanced by the Army, $11.6 million from 7 projects prefinanced
   by the Navy, and $96 million from 56 projects prefinanced by the Air Force.
   The following tables show the outstanding recoupments by the date the most
   recent information was received by USACE (Europe District), project title,
   project location, and estimated amount recoupable.

                     Table C-1. Outstanding Army Recoupments
    Date of Latest                                                         Estimated Amount
     Document              Project Title             Project Location          Recoupable
     October 1978    Patriot Neuheilenbach IRS      Balesfeld, Germany        $ 28,000
     January 1982           LRSP WADS                Hanua, Germany            115,000
       April 1982           LRSP WADS              Sennelager, Germany         602,000
        July 1983           LRSP WADS                Barme, Germany            225,000
        July 1983           LRSP WADS                Leeder, Germany           261,000
        July 1983           LRSP WADS             Phillipsburg, Germany        602,000
        July 1983           LRSP WADS              Reitscheid, Germany           5,000
        June 1984          Grease Ramps          Doernwasserlos, Germany        26,000
        July 1984        Upgrade Technical
                          Supply Building              Codogne, Italy           528,000
         July 1984   Upgrade M & A Building      Bettembourg, Luxembourg        158,000
         July 1984       Upgrade Technical
                          Supply Building           Cakmakli, Turkey             35,000
         July 1984   Upgrade M & A Building          Corlu, Turkey               60,000
         July 1984   Upgrade M & A Building         Erzurum, Turkey              65,000
         July 1984   Upgrade M & A Building           Ismit, Turkey              70,000
         July 1984   Upgrade M & A Building         Ortakoy, Turkey              65,000
         July 1984      Restore TRU/APRS
                             Warehouse                Livorno, Italy           2,107,251
     October 1985     Restore M & A Building       Kriegsfeld, Germany           250,000
     January 1986      Hawk Ready Building        Grafenwoehr, Germany           267,000
       March 1986        Maintain Building         Lemberg, Germany              122,000
   September 1990      Restore Water Supply          Werl, Germany               235,000
   December 1995           Repair Runway              Tuzla, Bosnia            2,125,000

    Total                                                                    $7,951,251


   Source: USACE (Europe District)




                                           24
                  Table C-2. Outstanding Navy Recoupments
 Date of Latest                                                 Estimated Amount
  Document             Project Title        Project Location        Recoupable
      July 1995       Restore Hanger        Souda Bay, Italy       $    15,000
September 1996       Runway Overlay            Rota, Spain             957,000
     June 1997    Tactical Support Center    Sigonella, Italy                0
     June 1997    Technical Evaluation of
                          Runway            Sigonella, Italy          79,000
     June 1997      Refueling System        Sigonella, Italy       6,475,000
  October 1997    Replace Parking Apron     Sigonella, Italy       1,992,768
  October 1997        Runway Repair         Sigonella, Italy       2,078,085

Total                                                            $11,596,853


Source: USACE (Europe District)




                                       25
                  Table C-3. Outstanding Air Force Recoupments
 Date of Latest                                                       Estimated Amount
  Document              Project Title          Project Location           Recoupable
September 1973 Additional RECT Facilities     Ramstein, Germany        $ 1,420,000
November 1980 Restore T/T PADS Lights            Aviano, Italy             343,000
    March 1983     Replace Switchboard         Decimannu, Italy              7,000
December 1983 Restore Aircraft PKG APR       Rhein Main, Germany         1,531,000
 February 1984        Restore MOD
                      Shelters Drain          Ramstein, Germany             316,000
    March1985      Restore Base Roads            Aviano, Italy              161,000
 February 1986 MOD Munitions Storage           Incirlik, Turkey           8,750,000
    March1986    Restore Engine Test ST          Aviano, Italy               79,000
     April 1986 Restore Aprons Taxitract      Ramstein, Germany             457,000
     May 1987      Extend Vehicle POO
                        Hardstand              Decimannu, Italy             46,000
     June 1988 POMSS Medical Storage
                         Facility              Incirlik, Turkey           1,076,000
     June 1988     Medical Warehouse      Bentwater, United Kingdom       1,026,000
September 1988       Threshold Lights          Hahn, Germany                308,000
    March1989 Restore Airfield Pavement       Ramstein, Germany           1,611,000
     April 1989      Widen Taxiway            Ramstein, Germany             134,000
     April 1989      POMSS Medical
                     Storage Facility       Spangdahlem, Germany          1,200,000
     May 1989 Internal RAD ZULU Loop             Aviano, Italy                8,000
     May 1989      Medical Warehouse           Boscombe Dow,
                                               United Kingdom              720,000
     May 1989     Restore Water System            Mildenhall,
                                               United Kingdom              748,800
     June 1990   Repair Airfield Lighting      Incirlik, Turkey            360,000
  October 1990   GLCM GAMA Shelters
                       BERM RPR                 Comisco, Italy              144,000
  January 1991      Engine Test Stand     Alconbury, United Kingdom          94,000
     May 1991       Engine Test Apron     Bentwater, United Kingdom         288,000
     June 1991   Replace M & I Aprons            Aviano, Italy              334,000
      July 1991    Medical Warehouse           Karup, Denmark             1,005,000
  October 1991 A/C Hydrant Fuel System         Decimannu, Italy           2,266,000
     June 1992     Repair Hanger Door       Spangdahlem, Germany            475,000
  January 1993       Construct RFTF       Alconbury, United Kingdom         287,000
     April 1993 Restore PAD DOR Drives           Aviano, Italy              531,000
     May 1993 Hydrant Refueling System           Aviano, Italy            1,380,000
     June 1993    Air Freight Terminals          Aviano, Italy              307,000
     April 1994 Ammunition Facility M & I        Aviano, Italy               99,000
     May 1995 MOD INTRANS APRON
                          B/933                  Aviano, Italy             194,000
     June 1997    Fuel Cell Maintenance
                         Facility                Aviano, Italy             490,000
     June 1997        Upgrade Water
                    DIST/FLTLN Pipe              Aviano, Italy             223,000
     June 1997       Restore Hanger              Aviano, Italy              12,000
     June 1997   Youth Center Addition           Aviano, Italy             980,000




                                        26
            Table C-3. Outstanding Air Force Recoupments (cont’d)
 Date of Latest                                                          Estimated Amount
  Document               Project Title            Project Location           Recoupable
     July 1997         Replace Fuel Farm            Sigonella, Italy       $ 5,990,902
    April 1988         Sound Suppression          Bitburg, Germany             210,000
     July 1998         Replace R/W Ends        Spangdahlem, Germany          2,313,090
  January 1999         Repair Fire Station          Sigonella, Italy         1,956,343
    April 1999        Construct Chemical
                        Storage Facility      Fairford, United Kingdom            431
     N/A*         Restore Maintenance Hanger          Mildenhall,
                                                   United Kingdom            2,000,000
      N/A            Addition to Munitions           Lakenheath,
                            Facility               United Kingdom              958,464
      N/A         Provide Lighting Protection Welford, United Kingdom        4,155,840
      N/A           Restore Taxiway Apron     Fairford, United Kingdom       2,744,352
      N/A           Restore A/C Washrack             Lakenheath,
                                                   United Kingdom             275,161
      N/A           Restore Communication             Mildenhall,
                            Facility               United Kingdom            4,182,048
      N/A            Provide Consolidated             Mildenhall,
                           Squadron                United Kingdom           15,039,648
      N/A           Maintenance Workshop              Mildenhall,
                                                   United Kingdom           10,561,824
      N/A                Construct Air                Mildenhall,
                    Reconnaissance Facility        United Kingdom            4,013,568
      N/A             Provide South JFSI              Mildenhall,
                                                   United Kingdom            7,967,232
      N/A          Hydrant Refueling Phase 1         Moron, Spain                 N/A
      N/A          Hydrant Refueling Phase 2         Moron, Spain                 N/A
      N/A           Repair Tank Fill Stand           Moron, Spain            1,907,276
      N/A             Construct Main Gate
                            Facility               Incirlik, Turkey          2,325,024

 Total                                                                    $96,012,003

*Not available.

Source: USACE (Europe District)




                                         27
Appendix D. Letter Addressing Liability
            Reporting
   As discussed in finding B, the Federal Accounting Standards Advisory Board
   formed a task force to research liability reporting issues and Federal Financial
   Accounting Standards in response to a request from the Federal Aviation
   Administration. The Federal Aviation Administration asked for guidance on
   reporting liabilities associated with financial commitments made to airport
   authorities prior to execution of grant agreements. The Federal Accounting
   Standards Advisory Board concluded that if the future outflow of the Federal
   resources is probable and measurable, the financial commitment should be
   recorded on financial statements as a contingent liability. However, because the
   Federal Aviation Administration could not reasonably estimate the amount of its
   financial commitment, it should disclose only the contingent liability in the notes
   to financial statements to notify the readers of the magnitude of the contingent
   liability. Because the Defense Advisor can obtain information from NATO to
   reasonably estimate its financial commitment for NSIP projects, DoD should
   report that commitment as a contingent liability on its DoD agency-wide
   financial statements. The June 11, 2001, letter from the Federal Accounting
   Standards Advisory Board follows.




                                       28
29
30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
  Assistant Secretary of Defense (International Security Affairs)
  Defense Advisor, U.S. Mission to NATO

Department of the Army
Commander, U.S. Army Europe and Seventh Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander and Chief of Engineers, U.S. Army Corps of Engineers
  Commander, U.S. Army Corps of Engineers, Europe District

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command
  Commander, Naval Facilities Engineering Command, Atlantic Division

Department of the Air Force
Commander, U.S. Air Forces in Europe
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. European Command
Commander in Chief, U.S. Joint Forces Command

Non-Defense Federal Organizations
Office of Management and Budget
Department of State




                                         31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         32
U.S. European Command Comments




                   33
34
35
36
37
Department of the Army Comments




                     38
39
Department of the Navy Comments




                     40
41
42
U.S. Mission to NATO Comments




                    43
44
     Deleted



     Revised




     Revised




     Revised




45
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel from the
Office of the Inspector General, DoD, who contributed to the report, are listed
below.

Shelton R. Young
Kimberley A. Caprio
Evelyn R. Klemstine
Donney J. Bibb
Michael J. Barnes
Michael T. Brant
Jaime L. Volturno
Sharon L. Carvalho
Elizabeth L.N. Shifflett
